<html>
<title> - LAW ENFORCEMENT RESPONSES TO DISABLED AMERICANS: PROMISING APPROACHES FOR PROTECTING PUBLIC SAFETY</title>
<body><pre>[Senate Hearing 113-885]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-885

                       LAW ENFORCEMENT RESPONSES
                    TO DISABLED AMERICANS: PROMISING
                APPROACHES FOR PROTECTING PUBLIC SAFETY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             APRIL 29, 2014

                               ----------                              

                          Serial No. J-113-57

                               ----------                              

         Printed for the use of the Committee on the Judiciary






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



























                                                        S. Hrg. 113-885

                       LAW ENFORCEMENT RESPONSES
                    TO DISABLED AMERICANS: PROMISING
                APPROACHES FOR PROTECTING PUBLIC SAFETY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                          Serial No. J-113-57

                               __________

         Printed for the use of the Committee on the Judiciary













[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










 		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-397 PDF                WASHINGTON : 2018                 
























                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER A. COONS, Delaware       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN G. HATCH, Utah
                 Joseph Zogby, Democratic Chief Counsel
                 Scott Keller, Republican Chief Counsel
































                            C O N T E N T S

                              ----------                              

                        APRIL 29, 2014, 10 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........    18
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1

                               WITNESSES

Witness List.....................................................    25
Earley, Pete, Author, Fairfax, Virginia..........................    13
    prepared statement...........................................    68
O'Donnell, Hon. Denise E., Director, Bureau of Justice 
  Assistance, U.S. Department of Justice, Washington, DC.........     3
    prepared statement...........................................    26
      attachment.................................................    37
Paul, Aubrey Dale ``A.D.'', Jr., Sergeant, Plano Police 
  Department, Plano, Texas.......................................    10
    prepared statement...........................................    55
Quam, Hon. Jay M., Judge, Fourth Judicial District of Minnesota, 
  Minneapolis, Minnesota.........................................    11
    prepared statement...........................................    58
Saylor, Patti, RN, MS, Frederick, Maryland.......................    15
    prepared statement...........................................    77
Wysinger, Alfonza, First Deputy Superintendent, Chicago Police 
  Department, Chicago, Illinois..................................     9
    prepared statement...........................................    42

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

American Baptist Home Mission Societies (ABHMS), Valley Forge, 
  Pennsylvania, statement........................................    81
American Diabetes Association, Arlington, Virginia, statement....    86
American Occupational Therapy Association (AOTA), Bethesda, 
  Maryland, statement............................................    91
Anchorage Coordinated Resources Project (ACRP), Anchorage, 
  Alaska, statement..............................................    94
Appleton Police Department Crisis Intervention Team (CIT), 
  Appleton, Wisconsin, statement.................................    96
Arc of New Jersey, The, North Brunswick, New Jersey, statement...   439
Arc of the United States, The, Washington, DC, statement.........   428
Ashley, Lisa M., statement.......................................   251
Assistance to the Incarcerated Mentally Ill, statement--redacted.    99
Autism Services, Education, Resources, and Training Collaborative 
  (ASERT), statement.............................................    98
Autism Society, Bethesda, Maryland, statement....................   447
Autism Speaks, New York, New York, statement.....................   101
Autism Up, Rochester, New York, statement........................   106
Bazelon Center for Mental Health Law, Washington, DC, statement..   111
Bernard, Mary Ann, Bernard, BA, JD, Sacramento, California, 
  statement......................................................   275
Biasotti, Michael, Chief of Police, New Windsor, New York, and 
  Author, statement..............................................   302
Brown, Lydia, statement..........................................   271
Brown, Marisa C., MSN, RN, Washington, DC, statement.............   273
Bruce, Robert ``Joe'', Caratunk, Maine, statement................   205
Buckler, Ray D., statement.......................................   385
Cameron, Laurie, statement.......................................   246
Carr, Eileen, statement..........................................   177
Cohen, Karen, Volunteer, National Alliance on Mental Illness 
  (NAMI), and Open Our Hearts, statement.........................   348
Conrad, Sharon K., statement--redacted...........................   390
Corporation for Supportive Housing (CSH), New York, New York, 
  statement......................................................   149
Council for Exceptional Children (CEC), Arlington, Virginia, 
  statement......................................................   145
County of Maui Police Department Crisis Intervention Team, 
  Wailuku, Hawaii, statement.....................................   289
Crisis Intervention Team (CIT) International, Inc., Memphis, 
  Tennessee, statement and appendix..............................   139
DeWitt, Candy, and Hans DeWitt, May 13, 2014, letter.............   127
Dwyer, Matthew, Parent and Community Advocate, Syracuse, New 
  York, statement................................................   288
Earley, Lois, statement..........................................   256
Epilepsy Foundation of America, Landover, Maryland, statement....   181
Estrada, Mike, statement.........................................   320
Family Resource, Information and Education Network for Down 
  Syndrome (FRIENDS), Frederick County, Maryland, statement......   192
Florida Crisis Intervention Team (CIT) Coalition, statement......   189
Fraser, Steven, and Lourdes Fraser, Gaithersburg, Maryland, 
  statement......................................................   417
Freedom Center, The, Frederick, Maryland, statement..............   451
Friedrich, Carla, statement......................................   128
Gallagher, Susan, statement......................................   419
Geesling, Deborah, Mesa, Arizona, statement......................   162
Goodale, Bruce, and Pat Goodale, statement.......................   125
Goodale, Patricia, Saratoga Springs, New York, statement.........   383
Gustafson, Kurt D., First Assistant County Attorney, Chautauqua 
  County Department of Law, Mayville, New York, statement........   134
Hallmon, Kie'Iera V., Pikesville, Maryland, April 28, 2014, two 
  letters........................................................   236
Hindu American Foundation (HAF), Washington, DC, statement.......   199
IndependenceFirst, Milwaukee, Wisconsin, statement...............   202
Institute for Safety and Preparedness, Ltd., Port Washington, New 
  York, statement................................................   203
Jackson, Richard, statement......................................   388
Jonathan Carey Foundation, The, Delmar, New York, statement and 
  appendix.......................................................   209
Juvenile Justice Initiative of Illinois, Evanston, Illinois, 
  statement......................................................   234
Kanczuzewski, Sandra M., statement...............................   389
Keeling, Linda J., statement.....................................   250
Kelmar, Brian A., statement--redacted............................   120
Kirkham, Charles, Lieutenant, Retired, Sunnyvale Department of 
  Public Safety, Sunnyvale, California, statement................   262
L.E.A.N. On Us, Shelby Township, Michigan, statement.............   238
Maryland Center for Developmental Disabilities (MCDD) and Ethan's 
  Law Work Group, Baltimore, Maryland, statement.................   283
Maryland Disability Law Center (MDLC), Baltimore, Maryland, 
  statement......................................................   285
Mental Illness Policy Org., New York, New York, statement........   292
Monterey County Behavioral Health Bureau, Salinas, California, 
  statement......................................................   321
National Alliance on Mental Illness (NAMI), Arlington, Virginia, 
  statement......................................................   326
National Alliance on Mental Illness (NAMI) Barrington Area, 
  Buffalo Grove, Illinois, statement.............................   335
National Alliance on Mental Illness (NAMI) Chicago, Illinois, 
  statement......................................................   339
National Alliance on Mental Illness (NAMI) Illinois, Springfield, 
  Illinois, statement............................................   341
National Alliance on Mental Illness (NAMI) Minnesota, Saint Paul, 
  Minnesota, statement...........................................   343
National Alliance on Mental Illness (NAMI) South Carolina, 
  Columbia, South Carolina, statement............................   345
National Alliance on Mental Illness (NAMI) Utah, West Valley 
  City, Utah, statement..........................................   346
National Alliance on Mental Illness (NAMI) Wake County, Raleigh, 
  North Carolina, statement......................................   349
National Association of County Behavioral Health and 
  Developmental Disability Directors (NACBHDD), Washington, DC, 
  statement......................................................   324
National Association of Police Organizations (NAPO), Alexandria, 
  Virginia, statement............................................   350
National Association of the Deaf (NAD), Silver Spring, Maryland, 
  statement......................................................   352
National Coalition for Mental Health Recovery (NCMHR), 
  Washington, DC, statement......................................   357
National Council for Behavioral Health, Washington, DC, statement   361
National Council on Disability (NCD), Washington, DC, statement..   366
National Disability Rights Network (NDRN), Washington, DC, 
  statement......................................................   373
National Down Syndrome Congress (NDSC), Roswell, Georgia, 
  statement......................................................   376
National Down Syndrome Society (NDSS), New York, New York, 
  statement......................................................   378
No Health without Mental Health (NHMH), San Francisco, 
  California, and Washington, DC, statement......................   381
Palafox, Mary, RN, statement.....................................   277
Parker, Janet, D.V.M., statement.................................   169
Pitts, Donna, statement..........................................   165
Rural Institute: Center for Excellence in Disability Education, 
  Research, and Service, The, University of Montana, Missoula, 
  Montana, statement.............................................   455
Southern Tier Independence Center, Binghamton, New York, 
  statement......................................................   405
Stanek, Hon. Rich, Sheriff, Hennepin County, Minnesota, statement   403
State of Maryland, Hon. Martin O'Malley, Governor, Annapolis, 
  Maryland, statement............................................   409
Strail, Carlton B., Syracuse, New York, statement................   132
Sullivan, Michael, Michael Sullivan ADA Consulting, statement....   312
Thompson, Sylvia, BA, CMC, daughter of someone with serious 
  mental illness, and President, National Alliance on Mental 
  Illness (NAMI) Westside Los Angeles, California, statement.....   421
University of Memphis Crisis Intervention Team (CIT) Center and 
  Crisis Intervention Team (CIT) International, Memphis, 
  Tennessee, statement...........................................   461
University of Nebraska Medical Center, Omaha, Nebraska, statement   466
Vera Institute of Justice, New York, New York, statement.........   471
Wall, Eileen, Systems Advocacy Team, Westchester Independent 
  Living Center, statement.......................................   180
Washington State Criminal Justice Training Commission (WSCJTC), 
  Burien, Washington, and Washington Cities Insurance Authority 
  (WCIA), Tukwila, Washington, statement.........................   480
West, Bill, The Arc of Multnomah/Clackamas, Oregon, statement....   118
Whalen, David V., Niagara University First Responder Disability 
  Awareness Training, Lewiston, New York, statement..............   152
Woody, Michael, Lieutenant, Retired, Akron Police Department, 
  Akron, Ohio, statement.........................................   269
Wilsey, Mary, mother, statement in memory of Keith Vidal.........   279
Youngblood, Hon. Donny, Sheriff-Coroner, Kern County, California, 
  and President, Major County Sheriffs' Association (MCSA), 
  statement......................................................   394

 
                       LAW ENFORCEMENT RESPONSES 
                         TO DISABLED AMERICANS: 
                          PROMISING APPROACHES 
                      FOR PROTECTING PUBLIC SAFETY 

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                      United States Senate,
Subcommittee on the Constitution, Civil Rights and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Franken, and Cruz.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good morning, and welcome to this hearing 
of the Subcommittee on the Constitution, Civil Rights and Human 
Rights. Today's hearing is entitled, ``Law Enforcement 
Responses to Disabled Americans: Promising Approaches for 
Protecting Public Safety.'' In a moment, I will be making an 
opening statement, then recognize my colleague Senator Cruz, 
the Subcommittee's Ranking Member, for an opening statement as 
well, and I want to thank Senator Cruz and his staff for their 
cooperation. We have agreed on today's witness panels on a 
bipartisan basis.
    We are pleased to have a larger audience for today's 
hearing, demonstrating the importance of this issue. There was 
so much interest that we moved to a larger room. If anyone 
could not get a seat in this hearing room, we have an overflow 
room, 226 Dirksen.
    Let me also thank those following the hearing on Facebook 
and Twitter using the hashtag #Ethanshearing. This is in honor 
of the late Ethan Saylor whose picture is to my right and who 
we will hear about during the later testimony today.
    We are here to examine the growing role of law enforcement 
in responding to incidents involving persons with disabilities. 
State and local law enforcement have made great progress in 
combating violent crime and keeping communities safe. In recent 
years, law enforcement has been forced to shoulder a new 
challenge. Due to inadequate mental health and social services, 
police officers have many times become the first responders for 
disabled individuals in crisis. The deinstitutionalization 
movement has led to many disabled Americans' release from State 
and local institutions into the community and a large reduction 
of available inpatient beds. It is estimated the country has 
lost 90 percent of its public psychiatric beds since the 
deinstitutionalization movement began.
    The goal is certainly laudable. However, there has never 
been adequate funding to allow local service providers to care 
for the disabled Americans living in their communities, and in 
recent years, there have been draconian cuts in their meager 
budgets. As a result, police officers, sheriff's deputies, and 
troopers have been inundated with calls involving mentally ill 
persons, and with the reduction in inpatient bed space, our 
jails and prisons have become, sadly, our mental health 
institutions by default.
    This Subcommittee considered this issue in a 2009 hearing 
on mental illness in prison and jails, more recently in two 
hearings on the use of solitary confinement. An estimated 56.2 
percent of the inmates in State prison--56.2 percent--have 
mental illness, 44.8 percent of inmates in Federal prison.
    Our focus today is the difficult challenge State and local 
law enforcement face in responding to incidents with 
individuals suffering from disabilities. This is a public 
safety issue. Numerous studies have found that at least half of 
the people shot and killed by police each year are mentally 
ill. And police officers are at risk as well. Many of us well 
remember the day in 1998 when a mentally ill man stormed the 
halls of this Capitol and fatally shot two Capitol Hill police 
officers who heroically confronted him and saved many lives in 
the process.
    This is also a civil rights issue. The Americans with 
Disabilities Act requires law enforcement agencies to make 
reasonable modifications to ensure that disabled Americans are 
not subjected to discriminatory treatment. And just this month, 
the Justice Department's Civil Rights Division found a local 
police department was required to implement certain remedial 
measures to protect the constitutional rights of disabled 
Americans. As is so often the case, local governments are 
leading the way in crafting innovation solutions.
    One promising approach we are going to hear about is the 
Crisis Intervention Team. It has two parts:
    First, training officers to recognize the signs of 
disabilities and to de-escalate a crisis incident involving a 
disabled person;
    Second, law enforcement building relationships with mental 
health and developmental disability communities. These 
relationships are critical to finding support and services for 
the disabled.
    Today there are more than 2,700 CIT programs in 48 States. 
Nationwide, localities with CIT programs are experiencing a 
noticeable decline in officer injuries, injuries to disabled 
citizens, and reduced detention rates. I am proud to say 
Illinois is one of the Nation's leaders in this area. Forty-
nine counties in my State out of 102 have a CIT program, and we 
will hear today from the Chicago Police Department's CIT 
program, which is considered a national model.
    As local mental health and disability services become 
increasingly scarce, the burden on police officers is going to 
be even larger. It is incumbent on Congress and the executive 
branch to help local and State law enforcement shoulder this 
expanded role and develop practices that protect officers, 
disabled individuals, and the public.
    Now, I might say at the outset that we have a series of 
votes on the floor at 11 o'clock this morning, six in a row, 
and then the mandatory lunches follow of the Democratic and 
Republican Caucuses. So we have a hard stop of 11:15. So we are 
going to do our best to give everyone a chance to testify and 
entertain questions and then proceed from that point.
    Senator Cruz when he arrives will be given an opportunity 
for an opening statement when he does arrive.
    Our first witness I would like to welcome is Denise 
O'Donnell, Director of the Justice Department's Bureau of 
Justice Assistance. The BJA provides grants and policy 
development services to local, State, and tribal criminal 
justice programs. Prior to her tenure with the BJA, Director 
O'Donnell was Deputy Secretary for Public Safety in New York 
and Commissioner of the New York State Division of Criminal 
Justice Services, and before that, U.S. Attorney for the 
Western District of New York.
    Director O'Donnell, thank you for being here. We are going 
to give you 5 minutes for an opening statement, and your 
complete written statement will be made part of the record.
    In keeping with the practice of the Subcommittee, please 
stand and raise your right hand to be sworn. Do you swear or 
affirm that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you God?
    Ms. O'Donnell. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witness has answered in the affirmative, and, Ms. O'Donnell, 
please proceed.

        STATEMENT OF HON. DENISE E. O'DONNELL, DIRECTOR,
        BUREAU OF JUSTICE ASSISTANCE, U.S. DEPARTMENT OF
                    JUSTICE, WASHINGTON, DC

    Ms. O'Donnell. Chairman Durbin, Ranking Member Cruz, and 
distinguished Members of the Subcommittee, thank you for 
affording me an opportunity to speak to you today. As Senator 
Durbin noted, I am Denise O'Donnell. I am the Director of the 
Bureau of Justice Assistance within the Department's Office of 
Justice Programs.
    BJA's mission is to provide policy leadership, guidance, 
and support to State, local, and tribal partners in 
implementing evidence-based and promising programs to promote 
safer communities. I am pleased to speak to you today about the 
strong commitment of the Department, and BJA specifically, to 
law enforcement in their growing role as first responders to 
crisis incidents involving people with mental illness and 
developmental disabilities.
    It is important to begin by recognizing an often misleading 
perception that individuals with mental illness are violent. A 
person with a severe mental illness who has no history of 
substance abuse or violence has the same likelihood of being 
violent as any member of the general public. In fact, people 
with serious mental illnesses are estimated to be between 2.5 
and nearly 12 times more likely to be victims rather than 
perpetrators of violence.
    Yet persons with serious mental illness make up a 
significantly disproportionate number of people in our Nation's 
jails. According to a 2009 report, of people booked into U.S. 
jails, 14.5 percent of men and 31 percent of women had a 
serious mental illness--rates in excess of 3 to 6 times those 
found in the general population.
    Law enforcement are often the first responders to mental 
health crises that occur in the community, and we are grateful 
for the work of the Senate Judiciary Committee and this 
Subcommittee in raising awareness around this issue. We are 
also very grateful for your support of the Mentally Ill 
Offender Treatment and Crime Reduction Act--MIOTCRA--which has 
enabled BJA to take a leadership role in addressing the 
intersection of criminal justice and mental health.
    Since 2006, this invaluable funding has enabled BJA to 
award 287 grants in 49 U.S. States, territories, and the 
District of Columbia. These grants support a broad range of 
activities, including Crisis Intervention Teams, mental health 
courts, treatment programs in prisons and jails, re-entry 
programs and cross-training of criminal justice and mental 
health professionals.
    To expand the reach of effective justice mental health 
programs, BJA has used grant funds to establish a National Law 
Enforcement/Mental Health Learning Site program in which six 
geographically diverse police departments who are leaders in 
this field mentor and host visits from other jurisdictions to 
improve their responses to persons with mental illness.
    The linchpin of BJA's efforts to build an effective law 
enforcement response nationwide has been through support of 
Crisis Intervention Teams, or CITs. CITs provide crisis 
intervention training to law enforcement and de-escalating 
situations involving persons with serious mental illness and a 
forum to partner with other organizations to coordinate 
diversion from jails to mental health services.
    There are currently over 2,800 CIT programs nationwide. 
Many have begun to offer training to corrections officers, 
dispatchers, firefighters, school resource officers, and 
specialized training for youth and for veterans. In many 
communities, CITs have served as a springboard for a broader 
collaboration between the criminal justice and mental health 
systems.
    I want to particularly recognize and thank Patti Saylor for 
participating in this hearing and for raising our awareness 
about the critical need for the justice system to develop 
sensitive and targeted responses to the special needs of 
individuals with intellectual or developmental disabilities.
    In 2013, BJA awarded funds to The Arc to create the 
National Center on Criminal Justice and Disability. This is the 
first national effort of its kind to address both victim and 
offender issues involving persons with disabilities. When fully 
developed, the National Center on Criminal Justice and 
Disability will serve as a national clearinghouse and online 
resource, as well as provide training and technical assistance 
in this important area. Other DOJ partners such as the Office 
of Victims of Crime and the Civil Rights Division are also very 
focused on the particular needs and vulnerabilities of 
developmentally disabled persons, and we believe the National 
Center will be an important resource for all of us.
    Mr. Chairman, Ranking Member Cruz, and Members of the 
Subcommittee, this concludes my testimony. I thank you for the 
opportunity to testify and would be glad to answer any 
questions that you have.
    [The prepared statement of Ms. O'Donnell appears as a 
submission for the record.]
    Chairman Durbin. Thank you for your testimony, and thank 
you for prefacing the testimony with the most important fact to 
be said over and over again: People suffering from these 
disabilities are no more likely to be violent than the 
population at large and more likely to be victims of violence, 
which is something we should stress over and over again. Today 
we are focusing on those instances where law enforcement is 
called into action, and I think it is worthy of a reminder on 
the record here that the men and women who put those badges on 
every single day literally put their lives on the line every 
single day for us. Any moment can be a life-or-death situation, 
and they are faced with that tension and that reality, and we 
should be cognizant of it and sensitive to it.
    So I guess two questions I would like to ask: What are we 
doing as a Government, at the Federal level and beyond, to make 
certain that they have the training to recognize the reality of 
these disabilities and how they are manifest? This is a 
challenge for many people with a great deal of experience in 
education to really perceive these things. And for those who 
are in law enforcement, faced with the tension of the moment, 
what are we doing to prepare them?
    Ms. O'Donnell. I agree, Senator, that it is so important 
that we provide training in this area, and that has been really 
a center focus of our efforts under the MIOTCRA-funded grant 
programs that we have, to fund programs that provide CIT 
training to look at the States that are providing leadership 
like Illinois to statewide take on the obligation to train law 
enforcement officers on these issues through CIT training, 
through more cross-disciplinary training with mental health 
professionals.
    So we are committed to doing this. The law enforcement 
community is large and diverse and presents a challenge to be 
able to reach out to law enforcement all across the country. 
But we see a real interest in this training and are committed 
to providing the training.
    Chairman Durbin. Just to put in a plug for another bill, I 
have introduced the Smarter Sentencing Act, supported by the 
administration, on a bipartisan basis in Congress, to reduce 
the rates of incarceration in the hopes that the money saved 
there can be directed toward more productive ways of keeping 
this a safer Nation, and this is certainly one of them, to 
upgrade the skills and equipment and training of the men and 
women in law enforcement by not wasting as much time and money 
with people incarcerated for periods of time way beyond what is 
necessary.
    There is another aspect of this which I find interesting in 
my State, and that is that we are starting to look at different 
court approaches. We have tried veterans courts, we have tried 
drug courts, and basically what we are saying is that certain 
criminal defendants should not be pushed right into the 
criminal justice system, but justice can be served, the safety 
of the community can be protected if we find alternatives for 
veterans, many times returning and struggling with substance 
abuse problems, with the stress and pressure of daily life, 
many times with PTSD. We have found that putting them in jail 
is not the answer. In fact, there are much better and more 
efficient ways to treat them in a humane fashion, and we are 
doing that across our State.
    The same thing is true when it comes to substance abuse. 
Rather than put the addict in jail with little or no treatment, 
we find ways to put them in programs that start to turn their 
lives around.
    Can the same be said when it comes to mental health courts? 
Are we at a point now where we should be looking at this from a 
different perspective?
    Ms. O'Donnell. Well, I agree with you, Senator. We are very 
fortunate at BJA that you have all entrusted us with the 
responsibility to provide leadership in the drug court and the 
veteran court and in the mental health court area. We support 
mental health courts through our MIOTCRA funding. We provide 
training, we provide mentoring courts through other mental 
health courts, for mental health courts, to be able to meet the 
high standards of our other problem-solving courts. But we 
think that this is an important area for the country as a 
whole.
    I personally have had a long-term relationship with Dr. 
Robert--or with Judge Robert Russell, who started the first 
veterans treatment court in my hometown, in Buffalo, New York. 
We have supported veterans courts now since they started in 
2008. I think it is one of the most important things we can do 
as a Nation to pay the respect to our veterans who are 
returning from wars and are suffering from mental illness and 
PTSD to be able to provide a specialized court and work with 
the Veterans Administration to provide services to our 
veterans.
    Chairman Durbin. Before I hand it off to Senator Franken, I 
would urge, if possible, that your Division really focus more 
resources and more time, if you can, in the collection of data 
on law enforcement interaction with the disabled, particularly 
where force is used, so that we can understand this phenomenon 
and chart our progress, if we have some, in this area. So I 
hope you will consider that.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for this 
important hearing. I have been working on a reauthorization of 
MIOTCRA and expansion of it called the Justice and Mental 
Health Collaboration Act, as you know. And in researching this 
and in living with this issue for a while, I have seen some 
amazing things and some great things, including--I am not sure 
where in this hearing I will tell some of the stories, but both 
police who use crisis intervention training in a way that is 
very moving and very productive, and the same in our prison 
system.
    I guess what I wanted to ask you about is sort of the cost-
benefit analysis of this, because we have so many people 
languishing in our prisons who probably--well, who certainly 
are not benefiting by being there, and that we are not 
benefiting by being there. And what we have seen with the kind 
of programs that we are talking about is less recidivism, you 
know, all kinds of benefits from that.
    Can you talk a little bit about the cost-benefit of crisis 
intervention training, of mental health courts, and other 
initiatives?
    Ms. O'Donnell. Yes, Senator. First of all, we think it is 
huge. We have two projects that I want to just focus on for a 
minute. One is a project that the Council for State Governments 
is doing in New York City, in the Riker's Island facility, 
where they did probably one of the most comprehensive 
examinations of who is in that jail suffering from a severe 
mental illness and what is their length of stay. And they 
actually followed up on all of the records and determined that 
people with serious mental illness were staying in jail twice 
as long as other individuals in jail. That is a huge cost and 
certainly not contributing to their overall mental health.
    And so New York City is fashioning a response to that where 
they are really developing centers in each of their courts in 
each of the boroughs, looking at how they can intervene 
quickly, identify those individuals, and get them out of jail, 
and provide the kind of services that they need. And they will 
be following the cost-effectiveness of that approach.
    The second project that we have is under the Justice 
Reinvestment Initiative, which BJA supports, and it is a local 
JRI site in Texas. And that site is really doing a cost-benefit 
analysis looking at just 23 high users of the jails and the 
mental health and health services within that community, and 
taking those individuals from jail, putting them in supportive 
housing with wrap-around services, and projecting the cost 
savings from that approach. And I think that will help raise 
awareness of how we can manage individuals with mental illness 
in our jail system that are particularly nonviolent offenders 
in a much more cost-effective way in the community and with 
better outcomes for the individuals involved.
    Senator Franken. I have had a number of roundtables on 
this. One, our sheriff in Hennepin County, Rich Stanek, wrote 
an op-ed piece in the Star Tribune saying about a third of the 
people in his jails had mental illness and that is why they 
were there. And we have seen that putting people in prison with 
mental illness makes them sicker, costs us money. We have--I 
guess 25 percent of the prisoners in the world are in our 
prisons, and we have 5 percent of the population. And a great 
deal of those are people with mental illness who are not 
benefiting, who, if our jails are overcrowded and costing us 
money, we are actually having to release people in States like 
California. But these people could do much better if they go to 
a mental health court, and a mental health court usually means 
that the prosecutor agrees to this--right?--the judge, the 
arresting officer, everybody agrees that this is the best place 
for this person, and see if they can get treatment instead of 
going to prison.
    Ms. O'Donnell. Yes.
    Senator Franken. We are going to have another panel who 
will be talking about some of the tragedies that have happened 
because our police officers have not gotten the right training, 
the crisis intervention training that has been so beneficial 
and is such a big part of this.
    Thank you, and I guess we will move on to the next panel. I 
know we have some votes.
    Chairman Durbin. Ms. O'Donnell, thank you very much for 
your testimony. We appreciate it.
    We will ask that the second panel now come to the witness 
table, and while they are coming, I am going to read the 
introductions. I am going to save one introduction for Senator 
Franken, but I would like to introduce the others who are 
coming. Our first witness is Chicago Police Department First 
Deputy Superintendent Alfonza Wysinger. First Deputy 
Superintendent Wysinger is second in command of the Chicago 
Police Department, responsible for overseeing all its daily 
operations, served as an officer with the CPD for 28 years, 
many units, including patrol, narcotics, detectives, and the 
DEA task force, and we thank him for being here.
    In addition to that, we have Sergeant A.D. Paul, Jr., a 
veteran of the Air Force, an officer in Plano, Texas, in the 
police department, for the past 28 years; received the 
department's Officer of the Year Award, Supervisor of the Year 
Award, and Meritorious Service Award. He currently is an 
instructor with the Dallas Police Department's Crisis 
Intervention Team Program and a coordinator for the Plano PD's 
CIT program.
    I will let you introduce the next witness.
    Senator Franken. Okay. Well, it is my privilege to 
introduce the Honorable Judge Jay Quam of Minnesota. Judge Quam 
was appointed to the bench in 2006 following an 18-year career 
in civil litigation. He has served for more than 3 years as the 
presiding judge of his district's mental health court, and he 
has been actively involved in working with Minnesota's law 
enforcement community to improve collaboration between jails, 
courts, and mental health providers. Judge Quam offers valuable 
expertise and a unique perspective, which I have been the 
beneficiary of, and I am glad that he is able to join us today. 
Thank you for being here.
    Chairman Durbin. Thank you, Senator Franken.
    Our next witness is Pete Earley, a former journalist and 
author of 13 books. In his book ``Crazy,'' a Pulitzer Prize 
finalist, Mr. Earley wrote about his experience of trying to 
get his son out of the revolving door between hospitals and 
jails and getting the treatment that his son needed. He is a 
member of the National Alliance on Mental Illness and advocates 
for mental health reform.
    Our next witness is Patti Saylor. Ms. Saylor is the mother 
of Ethan Saylor, a young man with Down syndrome who was 
tragically killed in Frederick, Maryland, on January 12, 2013. 
Ms. Saylor, a registered nurse, is an advocate for people with 
disabilities, developmental and intellectual disabilities. She 
founded F.R.I.E.N.D.S., the Family Resource, Information & 
Education Network for Down Syndrome, a parent support network 
in Frederick, Maryland, and an affiliate of the National Down 
Syndrome Society, served on the Maryland Developmental 
Disabilities Council, co-founded The Parent's Place of Western 
Maryland.
    I would like to ask all the witnesses on the panel to 
please rise to be sworn in, as is the custom of the Committee. 
Do you solemnly swear that the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Mr. Wysinger. I do.
    Sergeant Paul. I do.
    Judge Quam. I do.
    Mr. Earley. I do.
    Ms. Saylor. I do.
    Chairman Durbin. Thank you. Let the record reflect that all 
the witnesses answered in the affirmative.
    Mr. Wysinger, I am going to put your written statement in 
the record and ask you if you would give us a summary.
    We would appreciate it very much.

  STATEMENT OF ALFONZA WYSINGER, FIRST DEPUTY SUPERINTENDENT, 
              CHICAGO POLICE DEPARTMENT, CHICAGO,
                            ILLINOIS

    Mr. Wysinger. Thank you. Good morning, Chairman and Ranking 
Member Franken.
    Police in Chicago, as in many other metropolitan cities, 
have been receiving an increasing number of calls for service 
to respond to situations involving individuals with mental 
illness and co-occurring mental health and substance abuse 
disorders. The Chicago Police Department responds to a minimum 
of 63 pre-identified mental health-related calls per day, over 
23,000 per year. Such calls bring police in contact with the 
veterans impacted by post-traumatic stress disorder and/or 
traumatic brain injury who face their own unique challenges in 
seeking treatment services for support.
    Youth in desperately need de-escalation support and access 
to age-appropriate mental health and substance abuse services. 
All too often, these individuals lack the mental health care 
providers and non-treatment resources they need to lead 
healthy, law-abiding lives and to avoid becoming needlessly and 
inappropriately ensnared in the political and criminal justice 
systems. Thousands of calls for service are responded to 
annually by one of 1,800 Chicago patrol officers that have 
completed the 40-hour Chicago Police Department Crisis 
Intervention Training Program. These types of calls are 
responded to by officers who have not been CIT trained. If we 
are serious about jail diversion in crisis situations, law 
enforcement and mental health providers must work together to 
identify, analyze, understand, and solve gaps and weaknesses in 
the existing police-involved crisis intervention system. The 
Chicago Police Department and its award-winning CIT program and 
a network of strong mental health partners are uniquely 
qualified to do just that--improve the outcomes in Chicago and 
demonstrate strategies worth replication throughout the Nation.
    Therefore, it is critical that mental health treatment 
services that officers direct people to are responsive and 
effective. This can only happen if funding is available for 
these services to continue. We cannot arrest our way out of 
this problem, nor can we put all of our energy into CIT as the 
saving grace for this crisis. A broad range of services and 
psychological services must be accessible. Without these 
services or with inadequate services, officers--CIT trained or 
not--eventually will become disillusioned and may stop making 
efforts to link people to services. Without properly funding 
services and resources, the volume of calls involving persons 
with mental illness will only increase, which means that the 
needs of the citizens are not being met effectively or 
humanely, resulting in an increase of arrests of persons with 
mental illness and an increase in injuries to both officers and 
citizens.
    In Chicago, 50 percent of its community mental health 
centers closed in 2012, and one of three State facilities 
serving Chicago closed. That created a huge impact on public 
access, especially those with low income, to mental health 
services. While the closing of community mental health centers 
may play one role in the steadily increasing number of mental 
health-related calls for police service, it is not the only 
contributing factor. In Chicago, for instance, the overwhelming 
majority of people with serious mental illness brought to 
hospitals by CPD officers are of low income, uninsured, on 
Medicaid, and unable to obtain their own access to needed 
services. This unfortunately is the reality, and currently the 
three largest providers of mental health services are jails in 
L.A. County, New York, and Cook County Jail in Chicago.
    The Chicago Police Department recognizes that CIT programs 
are an effective tool. Data collected from federally funded 
sources of CIT Program found that, compared to their non-CIT-
trained peers, CIT-trained Chicago police officers directed 
people to mental health services 18 percent more often. CIT-
trained officers reported feeling better prepared to respond 
without needing to resort to the use of force and less force 
was used when the subject agitation increased.
    No one chooses to be mentally ill. In order for CPD CIT or 
any CIT program to be successful, it must maintain strong 
partnerships. The Chicago Police Department's CIT Program is 
more than just training; it is a partnership with mental health 
service providers, advocacy organizations, individuals, and 
family members living with a mental illness.
    Thank you.
    [The prepared statement of Mr. Wysinger appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much.
    Sergeant Paul.

          STATEMENT OF AUBREY DALE ``A.D.'' PAUL, JR.,
        SERGEANT, PLANO POLICE DEPARTMENT, PLANO, TEXAS

    Sergeant Paul. Thank you, Chairman Durbin, Ranking Member 
Cruz, and Members of the Committee for allowing me to testify 
here today. I am here to tel you about our CIT program. It is 
broken down into two major components: one is the training 
piece, and just as important is the collaboration or the 
partnership piece.
    I want to describe briefly the training. We have an initial 
40-hour class in which all first responders will have to 
complete, and then we have subsequent training after that. That 
40-hour class is broken into day one and two where the officers 
are trained on the mental illnesses, developmental delays, 
traumatic brain injuries. They also receive de-escalation 
communication and active listening skills.
    On days three and four, they have to go through reality-
based training where they will answer a number of these calls 
involving anything from an Alzheimer's patient lost to a 
returning vet with PTSD. The officers must pass those scenarios 
to get to day five, and day five is probably the most exciting 
day of the training where we actually have consumers come in 
and interact with the officers. They tell about their 
encounters with law enforcement, and they also describe their 
road to recovery.
    I think it is on that day that you can actually see the 
stigma start to leave from the police officers. Many, like me, 
come to the job with just a basic understanding of mental 
illness, and what they get is from movies and TV and the news 
where they are often the villain in the script.
    The second part of our program is the collaboration or the 
partnership piece. It is vitally important. We have experts 
that come into the classroom and give the officers skills on 
how to recognize mental illness and developmental delays. They 
are also imperative when we work on a difficult or complex 
case. We cannot do it alone, and usually the best results come 
from the back end of those relationships when they get the 
support that they need.
    Also, the support from the advocacy and the provider 
community is tremendous. In law enforcement, we are going to 
make mistakes. And when we make those mistakes, it is 
imperative that those partners provide us with crisis. And if 
they know our hearts and our heads were in the right place, 
they will see us through those crises.
    The National Alliance on Mental Illness, or NAMI, has been 
a great supporter of CIT. They were in the beginning with the 
Memphis model, and they support local training today. Our local 
NAMI Collin County is a great resource. The only issue I have 
is when they bring donuts the training. I have gained a few 
pounds.
    CIT has been embraced by a number of law enforcement 
agencies. I think once administrators and sheriffs learn of the 
benefits, the empirical evidence, a lot of it gathered from the 
Memphis CIT Center at the University of Memphis, they will see 
the reduction in the number of injuries to officers, injuries 
to civilians. They will see the number of lawsuits and 
complaints on their department go down. So they are hungry for 
these programs. Unfortunately, only 2 percent of our local 
departments in our Nation have full CIT programs.
    About 15 years ago, I was involved in a deadly shooting 
involving the death of Michael Clement, a young man on the 
autism spectrum. Today I have a 12-year-old son, Christopher 
Paul, who is also on the autism spectrum. I believe that CIT 
programs can improve the lives of millions of Americans living 
with disabilities. Your efforts to help make awareness and 
funding for CIT programs across our Nation are imperative.
    Thank you very much.
    [The prepared statement of Sergeant Paul appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Sergeant.
    Judge Quam.

STATEMENT OF HON. JAY M. QUAM, JUDGE, FOURTH JUDICIAL DISTRICT 
              OF MINNESOTA, MINNEAPOLIS, MINNESOTA

    Judge Quam. Thank you, Senator Durbin and Ranking Member 
Cruz and Senator Franken. As Senator Franken said, my name is 
Jay Quam, and I have been a Hennepin County District Court 
judge for a little more than 7\1/2\ years. During that time, I 
have seen the disproportionate number of people with mental 
health conditions come into all areas of the court system. But 
the area of the court system where they come in with the 
greatest number and with the greatest tragedy and heartbreak is 
in the criminal justice system. And what that means is that 
people with mental health conditions are too often brought to 
jail and then too often are left to languish there.
    You know the statistics. You talked about some of them. But 
when I am in court, they are not statistics to me. They are 
people like Kevin Earley, Peter's son; or Jason Moore, who was 
an All-America wrestler with a promising future before 
schizophrenia led him to break his neck by smashing his head on 
a jail toilet; or Michael Schuler, who stabbed his eyes out 
with a pencil.
    These are people to me, and they are people whose lives 
have been shattered by a disease they did not deserve, that 
they cannot control, and for which they are not able to receive 
adequate treatment.
    This is obviously a very complex problem that is deeply 
embedded in all of our communities. There is no simple, there 
is no easy, and there is certainly no inexpensive solution. But 
what I would suggest is that the Justice and Mental Health 
Collaboration Act is an excellent step in the right direction. 
And it is an excellent step in the right direction because it 
starts with the premise that the best way to keep people from 
languishing in jail is to keep them from being brought there in 
the first place.
    You already know about the CIT training. That initial point 
of contact can mean life or death. But it does not end there. 
The sad reality is that in most of our communities, when law 
enforcement encounters someone in mental health crisis, they 
have got three options:
    One is to leave them there, which is typically not really 
an option.
    A second is to bring them to the local emergency room, 
which, as you know, is an incredibly expensive option, but it 
very rarely leads to productive, successful outcomes.
    That leave the jail. And as you have heard and as you have 
seen, the jail cannot provide adequate mental health treatment 
for people with mental health conditions.
    The Justice and Mental Health Collaboration Act looks at a 
fourth option, and that option is a facility. I call it a 
``mental health hub,'' ``crisis dropoff,'' ``central receiving 
center.'' Those are the terms that you use for a facility where 
someone who is in law enforcement who has encountered someone 
in crisis can bring someone and then get back on the street and 
do what they do best, and that is, keep our streets safe. That 
hub, as what I call it, has mental health professionals who can 
stabilize a person when necessary, assess them to figure out 
what condition is going on; provide appropriate treatment of 
them; and when it is safe and appropriate to do so, place them 
in the community so they do not have to go to jail, and then 
follow them with the resources that they need to stay there. It 
is a concept that has great viability and, in fact, in 
Minnesota, there is legislation that is putting together a 
working group that is tasked with proposing a mental health 
center.
    But it is not just successful in concept. There are some 
communities that have actually implemented this, including in 
Orange County, they have what is called a ``central receiving 
center,'' and it has been in existence for over 10 years. And 
in that 10-year period, they have gathered statistics, and they 
are amazing. They have served 47,000 people. They have saved 
over 100,000 jail bed days at a cost of somewhere of $20 
million or more. They have saved 22,000 emergency room bed 
days, saving, depending on how you calculate it, somewhere 
between $17 and $44 million, all while allowing law enforcement 
a dropoff time of 12 minutes or less. So I would say mental 
health hubs should be a central part of any solution going 
forward.
    But, of course, some people are going to go to jail, and 
what you have already recognized, Senator Durbin, is that we 
need to be able to interact with those folks as soon as we can; 
and when we can safely and effectively divert them back to the 
community through mental health courts or veterans courts, we 
should do that. You have already expressed better than I can 
how effective they are, but what I can tell you is they are 
effective at giving people the lives that they deserve.
    So I urge you to continue to look not just at the initial 
point of contact but at every point through the process where 
you can work with people, find appropriate alternatives, and 
get them into the community so they can have happy, successful, 
and meaningful lives.
    Thank you.
    [The prepared statement of Judge Quam appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Judge.
    Mr. Earley.

      STATEMENT OF PETE EARLEY, AUTHOR, FAIRFAX, VIRGINIA

    Mr. Earley. Thank you, Chairman Durbin and Ranking Member 
Cruz, for holding the hearing. Thank you, Senator Franken, for 
being here.
    ``How would you feel, Dad, if someone you loved killed 
himself?'' My college-age son asked me that question when we 
were racing from New York City, Manhattan, to Fairfax County, 
Virginia, where I live. My son, Kevin, had been diagnosed with 
a mental illness, bipolar disorder, a year earlier but he had 
stopped taking his pills. When I picked him up in New York, he 
had been wandering across that city for 5 days. He had barely 
slept. He had not eaten. He was convinced God had him on some 
secret mission.
    When we got to the emergency room, the nurse rolled her 
eyes because Kevin was talking about how God had him on his 
mission, and he said, ``Pills are poison.'' We were taken into 
a room. We were being separated from everyone else. We sat 
there for 4 hours.
    Finally, Kevin said, ``Nothing is wrong with me. I am 
leaving.'' I went outside. I literally grabbed a doctor. I will 
never forget how he came in that room. He came in with his 
hands up as if he were surrendering. He said, ``I am sorry, Mr. 
Earley. I cannot help your son.'' I said, ``You have not even 
questioned him, investigated, asked him anything.'' It did not 
matter. Virginia law was very clear at the time. Unless you 
were in imminent danger, you could not be forced into any 
treatment. You could not be required to take any pills. And my 
son had said he thought pills were poison. The fact we had been 
sitting there for 4 hours meant there was no danger. So I was 
told, ``Bring your son back after he tries to kill you or kill 
someone else.''
    I took my son home. Forty-eight hours later, I saw him sink 
deeper and deeper into a mental abyss. He slipped out of my 
house. He slipped out early, broke into a stranger's house. 
Luckily no one was there. It took five police officers to get 
him out, and an attack dog. He was charged with two felonies: 
breaking and entering, and destruction of property.
    I was so frustrated. Virginia law had kept me from getting 
him help when he needed it, now wanted to punish him for a 
crime he committed when he was not thinking clearly.
    I am a journalist. I decided to investigate this. I 
discovered this is not an aberration. As has been said before, 
right now as we are sitting here, there are 365,000 people with 
schizophrenia, major depression, and bipolar disorder in our 
jails and prisons. In 44 States, there are more people in jails 
and prisons than there are in State mental hospitals.
    I spent 10 months in the Miami-Dade County jail following 
people through to see what happened to them if they had mental 
illness. Who are these prisoners? They are people like my son. 
They were not Hannibal Lecter serial killers. They were crowded 
into cells built for two prisoners. Beatings by guards were 
common. It was barbaric.
    My son got 2 years of probation. He did great. As soon as 
his 2 years ended, he quit taking his medication. I could see 
he was slipping. I called the Fairfax County Crisis Response 
Team. They said, ``Is he dangerous?'' I said, ``No.'' ``Call us 
when he is dangerous.''
    The night he became violent, I called them. They said, 
``Oh, he is violent? We do not come if he is violent. Call the 
police.''
    The police came. They shot my son twice with a taser and 
hog-tied him and took him away and said, ``Do you want to file 
charges?'' I was so outraged.
    The last time my son had a mental breakdown was a holiday. 
He was afraid I would call the police. He jumped in his car, he 
took off. He ran out of gas in North Carolina. He called me. He 
could not get out of that car because he was hearing voices 
that said if he got out, he would die.
    I arranged for him to get gas. He drove, psychotic, up 95. 
He got home. We went to a safe house. He said, ``I do not want 
to take pills. Just take me somewhere safe.'' He got up in the 
middle of the night. He took off all of his clothes because he 
thought that made him invisible.
    But listen to what happened to him this time. This time, a 
CIT-trained police officer picked him up, and my son said, 
``Please do not handcuff me.'' The officer said, ``I can use my 
discretion.'' He treated him with respect. He took him to the 
hospital, and I was told that when the doctor said, ``Well, he 
is not really dangerous,'' the CIT officer said--and I do not 
recommend this--``Well, maybe I will take him to your front 
yard and let him loose.'' At that point my son was admitted. He 
got a case manager, Cynthia Anderson, who is sitting down here 
in the cowboy boots next to my son, Kevin. She said to him, 
``Why don't you take your meds?'' She got him with a doctor who 
actually talked to my son. They found a medication that 
actually helped him, a low dose. She said, ``Why don't you live 
with somebody besides your father?'' She got him into housing 
with two people with schizophrenia.
    She said, ``What do you want to do with your life?'' He 
said, ``Well, I have a mental illness. What can I do?'' She 
said, ``Do not say that. Control the illness. Do not let it 
control you.''
    He became a peer-to-peer specialist, a person with mental 
illness who actually goes and helps other people with mental 
illness. He is part of our Fairfax Jail Diversion team right 
now. In fact, he holds two jobs. He works on weekends at a 
movie theater as an assistant manager. He lives in his own 
apartment, pays taxes, and has not had a relapse in 6 years.
    My son is an example of what can happen when a person with 
a severe mental illness is given the tools that he needs to 
recover. Crisis Intervention Training literally saved his life. 
Jail diversion, mental health courts, re-entry programs, all of 
these help persons avoid costly and unnecessary jail and prison 
sentences. But we need more. We need social workers like 
Cynthia Anderson to get him supportive housing, meaningful 
treatment, jobs, and, most importantly, give them hope.
    As a board member of the Corporation for Supportive 
Housing, I have seen hundreds of Kevins recover when they 
simply just get a safe place to live. There should be no shame 
in having a mental illness. There should only be shame in us 
not helping them. And, sadly, our Nation has much to be ashamed 
about.
    Thank you.
    [The prepared statement of Mr. Earley appears as a 
submission for the record.]
    Chairman Durbin. Ms. Saylor.

         STATEMENT OF PATTI SAYLOR, FREDERICK, MARYLAND

    Ms. Saylor. Thank you, Chairman Durbin and Ranking Member 
Cruz and Senator Franken. Thank you for being here to listen.
    I am really excited that this Committee is interested in 
this subject matter that is so dear to my heart. I have a bit 
of a different story. As Ethan's mother--Ethan was not mentally 
ill. Ethan was born with Down syndrome, which is a completely 
different issue. He had limited cognitive ability.
    I want to tell you that I am here as a grieving mother. It 
has been 14 months. I am not sure that it will ever stop. My 
family is here, Ethan's cousins, aunts, uncles. We are all 
still grieving very much for our Ethan.
    I want to tell you a little bit about him if you have never 
met someone with Down syndrome before. Of course, everyone with 
Down syndrome is their individual person. No two people are 
alike, just as we are not alike. But Ethan was the most loving, 
compassionate person on the planet. No one ever met Ethan that 
did not walk away with a smile.
    He had his challenges. He was frustrated a lot in life. 
Most of his challenges came from the world not understanding 
him, not valuing him, wanting things that other people had that 
he could not have--a wife, a college education, a driver's 
license. So he dealt with a lot of frustration.
    He had quite a few passions in life. We have over 500 
pictures on my computer right now that people have sent and I 
have looked at, and I have looked at everything from his 
lifetime. And his passions become very clear when you look at 
it. Law enforcement was one of his passions. Ethan has an 
entire collection of law enforcement badges and hats and 
memorabilia that law enforcement officers would give to him.
    Law enforcement was never called to respond to Ethan. Ethan 
called law enforcement on a daily basis because he wanted a 
job, he wanted to know if they had a dog, he wanted to see 
their gun, and mostly he just wanted to be friends with the law 
enforcement officer.
    As he got older, that expanded to CSI, FBI, NCIS, Secret 
Service, and we have a million stories which we like to sit 
around talking about Ethan's stories because they bring us so 
much joy in our life.
    We live in Frederick County, which is obviously where Camp 
David is. I worked as a camp nurse across the way at a camp for 
kids with special needs. And my family was there. Ethan, of 
course, being independent and strong-willed and lacking total 
judgment, decides he is going to go visit the President, the 
sitting President at the time, and I tried to explain to him 
that that would not be a good idea, that he could get hurt if 
he did that.
    Well, he disappeared and kind of wandered away, and I knew 
right where he had gone. So, luckily, the Park Service brought 
him back. But when I had a conversation with Ethan, I said, 
``Honey, they are not going to know that it is you.'' He said, 
``But, Mommy, I am a good guy. I am a good guy. It is okay. I 
will not hurt the President.'' And that is what he thought. He 
did not realize what would happen to him or how people would 
perceive him.
    On January 12, 2013, Ethan went to the movie theater. He 
went to the movies in our town all the time. He had supports. 
He benefited from a Medicaid waiver. He had private insurance, 
lots of family, lots of community support, and he had 
Government benefits as well. So he had a lot of support, and 
his support staff was with him, his support staff that was 
loving, kind, loved him, and he loved her. He had a great say 
in who he hired.
    When he did not pay for the second ticket when he went back 
into the theater, the theater manager called security. Security 
were three off-duty sheriff's deputies. They went into the 
theater after his aide had told them that he had Down syndrome, 
that I was 5 minutes from the theater, I would help him 
transition to coming home, or help him stay, and that she could 
get him out if he needed to leave. They disregarded her and 
told her to stay out of the viewing area. They went in. The one 
officer approached him, nicely at first, but demanded that he 
leave. Ethan was trying to buy a ticket using his cell phone. 
He had no money. He did not drive for himself. He needed to 
depend on others to get the things he wanted in life, and he 
wanted to stay and watch the movie.
    The officers proceeded to physically remove him from the 
theater, dragged him from his seat, tried to handcuff him. When 
that did not work while he was standing, they placed him on the 
ground, prone restraint, put handcuffs on, and my son died of 
asphyxiation on that floor of that movie theater for that $10 
movie ticket.
    Ethan was not escalated. He was not threatening. He was not 
in crisis. He had a problem that needed solving. How do I stay 
and watch the movie when my aide is telling me it is time to go 
home? I would have solved that problem in literally absolutely 
5 minutes.
    Since then, we have done a lot of advocacy in Maryland. We 
are talking about training. The Governor of Maryland has 
written an executive order that established a commission to 
look at law enforcement policy, and we are really looking to 
change things in the State of Maryland, and you could be 
extremely helpful in the Federal level.
    [The prepared statement of Ms. Saylor appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Ms. Saylor.
    The testimony from this panel has been so touching, and I 
am sure all the Senators feel moved by what you have had to 
tell us.
    Mr. Wysinger, when you take a look at 1,100 or 1,800--I 
have forgotten the exact number--of the officers in the Chicago 
Police Department who have CIT training, it really raises a 
question about those that do not, those who are not new 
recruits and do not go through the 40-hour course.
    Do you have any estimate of what it would cost your police 
department, our police department, to give training to all of 
those who come in contact with the public?
    Mr. Wysinger. No, Mr. Chair, I do not have an overall cost 
of what it would cost to train everyone. But in addition to the 
new officers, we do send some officers back for refresher 
courses. The new recruits coming through get 4 hours of 
training, and we also send officers that have taken the basic 
training to our advanced 40-hour course. So I would probably 
have to get back with you with a monetary answer to that, and 
that I will do, sir.
    Chairman Durbin. I wish you would.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. Sergeant Paul, what a great testimony you 
gave us. You implemented a program where your police officers 
in Plano go to the homes of children with developmental 
disabilities and interact with the kids so that they can 
establish a comfort level between the police officers and those 
with disabilities. Can you explain this program and how you 
happened to bring it to Plano?
    Sergeant Paul. Yes, sir. We know that a lot of this 
population have a fight-or-flight response to police officers, 
just their presence and the uniform, the badge, the gun, the 
police car. So we thought that we had a program where we could 
be proactive, meet the child or even young adult at their 
place, communicate in the means in which they communicate, that 
we are here to help.
    One of the issues in the autism world is wandering, and a 
lot of times we are looking for the child in our police cars 
with our PA systems, and we have got experience where the child 
stayed hunkered down. So we were looking for not only the 
fight-or-flight response when we make contact with them, but 
also to allow us to find them when they go wandering.
    So it was just an effort on our part to bring a program, to 
be proactive so that that population will have more comfort 
with uniformed officers. Yes, sir.
    Chairman Durbin. Thank you.
    Mr. Earley, when you observed the Miami-Dade criminal 
justice system, you concluded that 97 chronically mentally ill 
people in that community accounted for 2,200 arrests, 27,000 
days in jail, 13,000 days in crisis units, at a cost to the 
city of $13 million over 5 years, demonstrating that an 
uncommonly small number of chronically mentally ill people were 
consuming a large amount of law enforcement resources.
    What approaches have you seen that address this issue of 
repeat--if others who are not speaking would turn off their 
mics, maybe that will help. Thank you.
    What approaches have you seen that successfully address the 
problem of repeat mentally ill offenders?
    Mr. Earley. Thank you, Senator Durbin. Wrap-around 
services, intensive services, assertive community treatment, 
where the treatment team goes to the person who has a mental 
illness, instead of handing someone who has a mental illness, 
who probably does not even have a watch, if they are one of the 
hard-core homeless persons who are on the street, and telling, 
``Go here for this appointment,'' and ``Go here for this 
appointment,'' they actually go in. That along with housing 
first are essential. The key is CIT, getting an intervention, 
then getting those persons into the right program that can 
actually help them.
    I am glad you brought up the Miami jail. A hundred thousand 
dollars a day they are spending there. For one-third that, you 
could provide housing first, which takes a person whether they 
have addiction or mental illness and says, ``We are going to 
give you a roof first. Then we will deal with your addiction,'' 
and an ACT team, someone who can come in and say, ``This is how 
we are going to help you. Why don't you take medication? Have 
you thought about jobs?'' Those are the most successful.
    Chairman Durbin. Ms. Saylor, one of the parts of the 
tragedy involving your son is a different aspect than what we 
have talked about so far. Admittedly, the three security 
officers that you referred to at the movie theater had some 
capacity in another part of their lives in law enforcement, but 
they were private security guards in this circumstance here.
    What have you learned about their training before in their 
law enforcement capacity and whether they had any exposure to 
counseling or training in dealing with mentally ill people? And 
what can you say about those who are in the private sector 
security world?
    Ms. Saylor. The three officers were sheriff county deputies 
working as security guards for the mall, and they had a short 
training in mental illness. But to our knowledge, they had no 
training in interacting with someone with an intellectual 
disability or a developmental disability such as Down syndrome. 
So we are not aware of any training that they had had.
    Chairman Durbin. That is an important distinction and one 
which I had not thought about and should, and I am glad that 
you brought that up as part of it.
    Senator Cruz.

              OPENING STATEMENT OF HON. TED CRUZ,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman, and I want to thank 
each of the members of the panel for being here and for sharing 
your testimony. In particular, Ms. Saylor, I want to thank you 
for sharing what I know is a heartbreaking experience as a 
mother, and let me say I am sorry for your loss.
    Mental illness and mental disability are challenges we face 
in our society and face far too many. It has been reported 
about 6 percent of the population or 1 in 17 Americans suffer 
from a serious mental illness. About 200,000 of the mentally 
ill right now are homeless. About 125,000 are incarcerated in 
jails. And our resources to deal with that challenge are 
diminishing, and so I appreciate each of you highlighting the 
problem, highlighting the need for more attention to care for 
those with mental illness, to provide treatment, and to help 
those who are able to live to the maximum degree with 
independence and self-respect and dignity.
    In my family, my grandmother suffered from Alzheimer's, and 
for over a decade we saw her faculties diminish to the point 
where they were altogether gone. So I have seen firsthand in my 
family how challenging it can be to deal with a person who no 
longer has the capacity to interact in a way to take care of 
herself, and that was a very challenging thing for my family.
    I wanted to ask, Ms. Saylor, having gone through what you 
went through, looking forward what do you think law enforcement 
can do and should do to prevent future tragedies like the 
tragedy that happening to your son?
    Ms. Saylor. Well, I have thought of that a lot, and I think 
two things.
    I think, first of all, we need to build the capacity in the 
communities for relationship between law enforcement and people 
with intellectual and developmental disabilities. If we have a 
relationship, we are less likely to hurt each other, and there 
would be a greater understanding that a person with Down 
syndrome that may be refusing to get up out of their seat is 
really not questioning the officer's authority. Two different 
issues. So I think that we need to look at activities to build 
capacity relationship.
    Second, obviously law enforcement needs to have training. 
But with that training, it needs to be dispelling some myths 
and assumptions, because there was an assumption that my son 
might be violent or harmful. It did not exist. That was not the 
issue. So getting rid of some assumptions and stereotypes along 
then with the training, like Senator Paul has talked about--I 
mean, Senator Paul? Officer Paul.
    Senator Cruz. Perhaps one day Sergeant Paul will join us as 
Senator Paul.
    [Laughter.]
    Sergeant Paul. Thank you very much.
    Senator Cruz. Well, and let me take that opportunity to 
shift to Sergeant Paul. First of all, I just want to thank you 
for your years of service as a police officer in the great 
State of Texas.
    Sergeant Paul. Thank you.
    Senator Cruz. Before you became an instructor with the 
Dallas Police Department's Crisis Intervention Team and 
coordinator for the Plano Police Department's Crisis 
Intervention Team, what sort of training or protocols were 
given to police officers when interacting with an individual 
with mental disabilities or mental illness?
    Sergeant Paul. Throughout my career, we have had different 
pieces of active listening skills, verbal judo, these sort of 
things, and they kind of skirted the disability community and 
substance abuse.
    I think one of the issues is from day one of the police 
academy, and rightfully so, officers have to be trained to 
control their environment. They have to use escalation of force 
to control their environment. That is what keeps them safe. And 
they are taught that throughout the whole academy and then in 
field training.
    The issue comes, some of those same techniques that we are 
trained in the academy can aggravate someone in crisis. And so 
communications I think is one of the keys to this for our 
department. If we can communicate with our community, that we 
have CIT officers, that we do have the training, if you can get 
that information to us as quickly as you call in to the 911 
dispatch or if the public suspects that there is mental 
illness, while that officer is still going to control his 
environment, he can shift into that CIT mode a lot quicker and 
start using some of those skills, giving some control back to 
the person so that we can start that de-escalation of that 
situation and then they can resolve the situation.
    Senator Cruz. Right now what percentage of officers would 
you say have some significant CIT training?
    Sergeant Paul. With about 2,800 police departments in our 
Nation with CIT programs--and you are talking about usually 
major police departments--that would seem like a high number. I 
think the issue, though, with 14,000 local police departments, 
we are missing a lot of those officers, a lot of those 
agencies.
    In our department, we decided to train all of our first 
responders, our school resource officers, our hostage 
negotiators, our neighborhood police officers; anyone who might 
be the first responder on a scene of an incident, they are 
going to be required to go through the 40-hour training. I will 
get back with you on the number of officers.
    Senator Cruz. Mr. Wysinger, do you have anything to add 
from the perspective of Chicago on that same question?
    Mr. Wysinger. I would have to agree with Sergeant Paul's 
analogy. I think the more officers that we actually have 
trained and able to respond to situations makes for a better 
environment for public safety. We have implemented a process in 
Chicago where our dispatchers are actually trained, so they 
know which officers have gone through the CIT training and they 
can actually screen some of the calls to ensure that if a call 
is warranted of a CIT officer, the officer is immediately 
dispatched to try to help de-escalate the situation before it 
even rises to a level of use of force. So using that CIT 
training, being able to dispatch them to the scene first 
actually goes a long way with ensuring that the public is safe.
    Senator Cruz. Thank you very much.
    Chairman Durbin. Senator Franken.
    Senator Franken. I want to thank all the witnesses for 
being here today, especially Mr. Earley and Ms. Saylor. I know 
that the experiences you related are very difficult, especially 
for you, Ms. Saylor, and very difficult but a good outcome for 
Mr. Earley, which is inspiring. And I know your stories will 
help a lot of people know that they are not alone and hopefully 
will enable Congress to make the reforms that we need, 
including more crisis intervention training.
    Thank you for what you do, Sergeant Paul.
    You know, I will just try to tell this as fast as possible. 
I went to the Columbia Heights Police Department, and it is a 
suburb in the Twin Cities, and they had had CIT training. And I 
asked, first of all, give me some idea of what the effect had 
been, and the sheriff was not there, but the county attorney 
was, and he apologized for the sheriff not being there. He had 
to do something. And he said, well, the day after he got the 
CIT training, he did not kill a guy he would have killed.
    So I just turned to a police officer, a woman police 
officer, and said, ``Could I get a more garden variety 
example?'' You know, and she said, ``Okay, garden variety.'' 
She was a policewoman. She said, ``Garden variety. Okay. I do 
not know. About 3, 4 months ago I was out on the street, and I 
heard a woman screaming, and I thought it was some domestic 
violence thing. But she was just screaming, and then she went 
to this railing on a wall leading down to a playground, and I 
recognized what was going on, kind of.'' And she said, ``By the 
way, CIT training is something I use every day. I will probably 
holster my gun once in my career, but it is something I use 
every day.'' And she said, ``I was able to talk this woman, if 
she had dropped''--she had threatened to drop, to let go, and 
if she had done that, she would have gotten--I do not know if 
she would have gotten killed. She would have gotten very badly 
hurt. She talked her off. She said that she had been sexually 
abused as a child and that the abuser was back in her--had come 
back. He had left and had come back in her life. And then she 
said, ``I told her, `I think I can get you some help.' '' She 
referred her to the community mental health services.
    She said, ``About 2 months later, I was working a community 
fair. A woman came up to me and said, `Thank you. You saved my 
life.' '' And I said, ``Okay, that is the garden variety 
story.'' That is the garden variety story.
    So thank you for--I really do believe that we need to have 
CIT training for every law enforcement official. I think it 
should be in the Justice and Mental Health Collaboration Act, 
which, thank you, Sergeant Paul, for endorsing and thank you 
all, Mr. Quam, for endorsing today in your testimonies. It 
would do that. It would give that in academies and other 
training for officers.
    I have also heard from corrections officers what a 
difference it makes in, you know, the--I was in St. Cloud State 
Prison where they were talking about the different--I remember 
one officer saying, one of the corrections officers saying to 
me, ``You know those things on TV on the weekend where they 
show these guys have to suit up because somebody is out of 
control, and they put on masks and they put on gear and go in 
there. Sometimes all you have to do is talk to the person, and 
it saves a lot of wear and tear.''
    But let us talk about after the crisis intervention 
training. Judge Quam, you run a mental health court, and what 
is the difference--what does that do in terms of outcomes, in 
terms of outcomes for them and for us, for everyone? What is 
the outcome of having that and hopefully veterans courts, et 
cetera?
    Judge Quam. Thank you, Senator Franken. There are two 
different mental health courts: one is a commitment court where 
there is civil commitment; the other is what more people know, 
and that is the--we call them ``problem-solving mental health 
courts.'' And the statistics nationwide, not just in Hennepin 
County, are phenomenal for the effectiveness of courts like 
mental health court and veterans courts. And they work because 
they provide what Mr. Earley suggested they need, and that is 
the services that someone needs in order to survive and thrive 
out in the community. That is one component.
    The other component that makes it effective is intensive 
judicial supervision. So there are a lot of check-ins, there is 
a lot of monitoring, and there is always the threat of 
incarceration if the person is not following the path that they 
need.
    When you combine those two components, the statistics are 
amazing. I cannot spout one off right now, but an incredibly 
high percent of veterans, people with mental illness, people 
with drug issues or dependencies can avoid reincarceration, 
have jobs, become the types of people that they had the 
potential to become before they became involved in a mental 
health or problem-solving court.
    Senator Franken. My time is up, and I know we have votes, 
but the costs-benefits in terms of not just actual dollars to 
the taxpayer but in terms of the lives, this is a more issue, 
too.
    Mr. Chairman, can I ask Mr. Earley to speak to that?
    Chairman Durbin. Sure.
    Senator Franken. Or Judge, anyone on the panel, and then I 
am done.
    Mr. Earley. Well, I went into jail, and I saw people who 
could have been my son, so it was very personal to me. And I 
also read the statistics, and one of the statistics you were 
after, 85 percent recidivism rate for persons with serious 
mental illness in jails and prisons--85 percent; 80-percent 
recovery rate for those same people if you give them--go 
through a mental health court, get into treatment, have wrap-
around services.
    The point that Senator Durbin was making earlier about the 
cost-benefit should be right on. We are spending that money. 
Senator Cruz talked about a lack of resources. We are already 
spending it. We are spending $30,000--in Miami, $35,000 a year 
to keep those frequent flyers going back and forth. We are not 
getting anything for it. Why not use that money for something 
that works?
    Senator Franken. Thank you all--or, Judge Quam?
    Judge Quam. If we have time, I have just got a short story 
that brought the humane point to me. I was presiding over a 
commitment case once, and I saw from the file it was a guy 
about my age. He came into court. It was a guy who looked maybe 
80 years old, 75 years old, had schizophrenia beginning 
somewhere when he was in his 20s, spent most of his life on the 
streets or in jail or in homeless shelters. He could not talk 
very well. It was a very short hearing because of that. But he 
wanted to tell me something, and I told him, ``Once we are done 
here, your lawyer will talk to you, make sure he knows what you 
said, and he will come and tell me.''
    So a couple minutes later, the lawyer came in and said, 
``This does not make any sense, but what he said was, `I used 
to skateboard with you.' '' And you know what he meant by that? 
He actually used to skateboard with me. He was one of my high 
school friends who I had parted ways with, became 
schizophrenic, and had a completely different life than he 
deserved. And that was the point where it hit home to me that 
this can happen to anyone.
    Chairman Durbin. Thank you to this panel, and thanks to Ms. 
O'Donnell for being here earlier. We have left out a piece of 
this, which we could hold and probably will hold a separate 
hearing. Once incarcerated, what about the corrections 
officers? What happens in that setting?
    Now, we have had hearings here about segregation in 
incarceration, which usually means once incarcerated for a 
crime, you commit another crime while incarcerated. It turns 
out that many mentally ill people are destined to be found 
guilty of violating some rules and conduct because of a lack of 
understanding on both sides, from the corrections officer as 
well as the prisoner. And many times it leads to segregation, 
which makes the mental illness even worse. And then they are 
released, just to show the ultimate futility and inhumanity of 
the current system. So thank you for helping to put a 
perspective on this and helping us to understand it.
    We have so many organizations, over 100 organizations and 
individuals submitted statements for the record, and without 
objection, I will make them part of the record.
    [The statements appear as submissions for the record.]
    Chairman Durbin. I want to give a special shout-out to an 
individual, Lucius Outlaw, on my staff, who has done a lot of 
work on this hearing. He is an attorney on a 1-year detail from 
the Federal Public Defender's Office to this Subcommittee, and 
his detail is ending soon. I want to thank him for his good 
work on this hearing and in many other areas.
    We are going to keep the record open, and if there are 
questions from other Members, if you can respond to them in a 
timely fashion, I would appreciate that very much.
    Thank you all for attending today.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]



</pre></body></html>
